Booth v. State
Supreme Court of Georgia
August 14, 2017, Decided
S17A0705.
Reporter

301 Ga. 678 *; 804 S.E.2d 104 **; 2017 Ga. LEXIS 634 ***.

2017 WL 3470256

BOOTH v. THE STATE.
Prior History: Murder. DeKalb Superior Court. Before
Judge Adams.
Disposition: Judgment affirmed in part and vacated in
part.
Counsel: Lee &Z1egler, Konrad G. W. Ziegler, for
appellant.

Sherry Boston, District Attorney, Lenny I. Krick, Alvera
A. Riley, Assistant District Attorneys; Christopher M.
Carr, Attorney General, Patricia B. Attaway Burton,
Deputy Attorney General, Paula K. Smith, Senior
Assistant Attorney General, Meghan H. Hill, Assistant
Attorney General, for appellee.
Judges: [***1] PETERSON, Justice. All the Justices
concur.
Opinion by: PETERSON

Opinion
[*678] [**106] Peterson, Justice.
Delroy T. Booth was convicted of malice murder and
other crimes in connection with the death of Shantle
Vason.1 Booth appeals [**107] and argues that the trial
--------------------------------------------------1The crimes occurred in February 2007. On September 22,
2011, a DeKalb County grand jury indicted Booth for malice
murder, two counts of felony murder, aggravated sodomy,
aggravated sexual battery, and aggravated assault. Booth
entered a plea of incompetency, but a special jury found him
competent to stand trial. Following a jury trial in February and
March 2013, Booth was acquitted of aggravated sodomy, but
found guilty on all other charges. The trial court sentenced

court erred by: (1) reading the indictment to a
competency jury; (2) allowing the State to make
improper arguments during closing statements;
(3) admitting evidence of other acts to prove intent in
this case; and (4) merging instead of vacating the felony
murder counts. We vacate the merger of the felony
murder counts and otherwise affirm Booth's convictions.
Viewed in the light most favorable to the verdict, the trial
evidence showed the following. Sometime in December
2006, Booth began dating Vason, who had been
diagnosed with an intellectual disability. In early
February 2007, police were called out to Booth's
apartment on multiple occasions. One 911 call was
made by Booth's roommate who reported that Booth
had assaulted Vason; another call was made by
Vason's mother, Evelyn Rosemond, when Booth
refused to allow Rosemond to see her daughter.
At some point, Vason began seeing someone else. On
the morning of February 24, 2007, Booth called a friend
from Vason's cell phone [***2] [*679] and admitted to
being inside Vason's apartment and having an argument
with her about another man. Booth also called Vason's
sister, admitting that he had gotten into an argument
with Vason and taken her phone so she could not call
anyone. Booth told Vason's sister that Vason was
cheating on him, apologized because he “couldn't deal
with her,” and said he was going to call Vason's mother
so he could apologize to her, as well. Sometime later,
Booth spoke to Rosemond on Vason's cell phone. Booth
told Rosemond that he was leaving Vason because she
was cheating on him and she was. “slow.’’ Rosemond

Booth to'life in prison for the malice murder conviction and a
consecutive term of life imprisonment for the aggravated
sexual battery conviction, merged the aggravated assault
count with the malice murder conviction, and “merged” the two
felony murder counts with the malice murder count. On March
28, 2013, Booth filed a timely motion for new trial, which he
subsequently amended, and the trial court denied the motion
on July 24, 2015. Booth filed a timely notice of appeal, and the
case was docketed to this Court for the term beginning in April
2017 and submitted for a decision on the briefs.

Page 2 of 7
301 Ga. 678, ‘679; 804 S.E.2d 104, “107; 2017 Ga. LEXIS 634, “*2
asked to speak with Vason, but Booth claimed he was
not with Vason and was in a different part of town. Cell
phone records showed, however, that Vason’s cell
phone, which Booth was using, was near a cell phone
tower close to Vason's apartment.
Later that day, Booth called 911 and reported that
Vason had been assaulted. When police responded to
Vason's apartment, they found Booth attempting to do
CPR on Vason, who was gasping for air. She was
naked and partially covered by a sheet, and the
exposed portions of her body revealed significant
bruising, including to her neck, face, legs, and arms.
Her[***3] eyes were swollen shut, her left arm was
swollen, and her buttocks were bleeding. After being
transported to a local hospital, Vason was airlifted to a
trauma unit, where doctors determined that she had lost
all brain function due to traumatic brain injuries. Vason
remained on life support for several hours but was
eventually disconnected and died from her injuries.
Booth told police officers at the scene that he went to
Vason's apartment to check on her after her mother
expressed concern that she had not heard from Vason.
Booth said he found Vason fully clothed in a state of
distress, undressed her to treat her injuries and to put
ice packs on the bruising, and called 911 when she
became unresponsive. Police did not see any ice packs
in the area. Booth had speckles of blood on his shirt that
DNA analysis later revealed was Vason's. After
arresting Booth and taking him to the police station,
police noticed that Booth's right hand was red, swollen,
and bruised.
While searching Vason's apartment, police observed
signs of a struggle, including a broken frame, broken
glass throughout the apartment, damaged blinds, and
blood on an end table, in the kitchen, and on the
mattress in the bedroom [***4] where Vason was found.
Officers also found a box in the garbage that contained
a candle covered in feces.
A medical examiner conducting an autopsy on Vason
concluded that Vason had numerous blunt force injuries
and abrasions across her body, she had injuries on her
hand consistent with defensive wounds, and had
extensive hemorrhaging on both sides of her head. The
medical examiner concluded that although Vason's
extensive [*680] injuries were incompatible with life, her
head injuries were the likeliest cause of her death. The
medical examiner also determined that the fecescovered candle was the likely cause of injuries found
inside Vason's rectum, and that the bruising on Vason’s

buttocks was consistent with a forceful attempt to
expose her anus.
[**108] Before Vason died, medical personnel collected
DNA samples from Vason's genital and rectal areas. A
GBI analyst compared those DNA samples with DNA
samples taken from Booth by evaluating 16 locations in
the DNA profiles. A semen sample taken from Vason's
rectal area was a 16-location match for Booth's DNA.
The swab taken from Vason's genital area indicated the
presence of two DNA profiles in addition to Vason's
DNA profile. One of the other profiles [***5] was a
partial match for Booth, but the other was not.
1. Booth does not challenge the sufficiency of the
evidence. Nevertheless, as is our customary practice in
murder cases, we have independently reviewed the
record and conclude that the evidence was legally
sufficient to authorize a rational trier of fact to find
beyond a reasonable doubt that Booth was guilty of the
crimes for which he was convicted. See Jackson v.
Virginia, 443 U.S. 307, 319 (99 SCt 2781, 61 LE2d 560)
(1979).
2. Booth argues that the trial court plainly erred by
reading the indictment in its charge to the special jury
determining Booth's competency to stand trial. Although cv
Booth did not object to the charge at the time, he now
argues that the criminal charges and the allegations of
how the crimes were committed were irrelevant and
prejudicial to the jury's determination of the issue^iQ/e

p..
V
'

disagree
Where, as here, a party fails to object to a jury charge,
we review .the issue for plain error pursuant to OCGA 8
17-8-58 (b). There are four prongs in the test for plain

First, there must be an error or defect — some sort
of deviation from a legal rule — that has not been
intentionally relinquished or abandoned, i.e..
affirmatively waived, bv the appellant. Second, the
legal error must be clear or obvious. [***61 rather.
than subject to reasonable dispute. Third, the error
must have affected the appellant's substantial,
rights, which in the ordinary case means he must
demonstrate that it affected the outcome of the trial
court proceedings. Fourth and finally, if the above
three prongs are satisfied, the appellate court has
the discretion to remedy the error — discretion
which ought to be exercised only if the error,
seriously affects the fairness, integrity, or public
reputation of judicial proceedings.

N

A

Page 3 of 7
S.1

301 Ga. 678, *680; 804 S.E.2d 104, **108; 2017 Ga. LEXIS 634, ***6
[*681] State v. Kelly, 290 Ga. 29, 33 (2) (a) (718 SE2d
232) (2011) (citations and punctuation omitted).
The trial court made no error, much less plain error, in
reading the indictment to the jury during the competency
hearing. At issue in a competency proceeding is
whether
a defendant is capable at the time of the trial of
understanding the nature and object of the
proceedings going on against him and rightly
comprehends his own condition in reference to
such proceedings, and is capable of rendering his
attorneys such assistance as a proper defense to
the indictment preferred against him demands.
Lewis v. State, 279 Ga. 69, 70 (3) (608 SE2d 602)
(2005) (citation and punctuation omitted). Whether a
defendant understands the nature and gravity of the
charges against him is highly relevant to the
competency proceeding. Black v. State, 261 Ga. 791,
794 (2) (410 SE2d 740) (1991). (1) Because the
indictment provided [***7] information about the nature
and gravity of the charges against Booth, the trial court
made no error in reading the indictment to the special
jury where it otherwise properly charged the jury on its
duty to determine Booth's competency. See Waldrip v.
State, 267 Ga. 739, 743 (6) (482 SE2d 299) (1997) (trial
court did not err in allowing the State to repeatedly refer
to the pending charges against a defendant at the
competency proceeding; the nature of the charges was
relevant to the competency determination and the court
properly charged the jury on its role), abrogated on
other grounds as recognized by Archie v. State, 248 Ga.
App. 56, 57 (1) n.3 (545 SE2d 179) (2001).
3. Booth argues that the trial court erred by admitting
evidence of other acts for the purpose of proving his
intent to commit the charged crimes. We disagree.
The other acts evidence involved Booth's assault and
battery of ex-girlfriends. Traveaka Banks testified that,
during the time she dated and lived with Booth, Booth
became angry and hit Banks in the head and arms with
his fist after she said she wanted to end [**109] their
relationship. Ciara Hassell, another of Booth's ex­
girlfriends, also testified that Booth was physically
abusive during their relationship. Once, Booth became
angry when he asked Hassell to use her food stamp
card and she told [***8] him she did not have it. Booth
threw things and then hit Hassell in the head. For this
offense, Booth pled guilty to family violence battery.
Hassell also said that about a week after the first
incident, she and Booth were arguing about money

when Booth hit her on the head with his hand and threw
something that hit [*682] her in the back. Booth pleaded
guilty to aggravated stalking and family violence battery
for his acts during the argument.
We review a trial court's decision to admit other acts
evidence for an abuse of discretion. See State v. Jones,
297 Ga. 156, 159 (1) (773 SE2d 170) (2015). For trials,
like Booth's, that occur after January 1, 2013, the
admissibility of other acts evidence is governed by
OCGA § 24-4-404 (b) ("Rule 404 (b)”), which provides
that “[ejvidence of other crimes, wrongs, or acts shall
not be admissible to prove the character of a person in
order to show action in conformity therewith. It may,
however, be admissible for other purposes, including,
but not limited to, proof of... intent ... .” For other acts
evidence to be admissible, the moving party must show
that: (1) the evidence is relevant to an issue other than
the defendant's character, (2) the probative value is not
substantially outweighed by undue prejudice under
OCGA § 24-4-403, and (3) there is sufficient [***9] proof
so that the jury could find that the defendant committed
the acts. Jones, 297 Ga. at 158-159 (1); Bradshaw v.
State, 296 Ga. 650, 656 (3) (769 SE2d 892) (2015).
Rule 404 (b) is a rule of inclusion, but it does prohibit the
introduction of other acts evidence when it is offered for
the sole purpose of showing a defendant's bad
character or propensity to commit a crime. See Jones,
297 Ga. at 160 (2); see also United States v. Covington,
565 F3d 1336, 1341 (II) (A) (11th Cir. 2009) (“Rule 404
(b) prohibits the introduction of pure propensity
evidence.”);2 Ronald L. Carlson & Michael Scott
Carlson, Carlson on Evidence 128 (5th ed. 2016) (“Rule
404 (b) is one of inclusion [that] allows extrinsic
evidence unless it tends to prove only criminal
propensity.”).
Booth asserts an argument regarding only the first part
of Rule 404 (b)'s three-part test. Fie argues that the
other acts evidence, which he claims constituted no
more than battery or simple battery, was not relevant to
the issue of intent because the intent required for
battery or simple battery was not the same as that for
the offenses charged here.3 He focuses specifically on

2 In considering Rule 404 (b), we take guidance from the
decisions of the federal appellate courts, especially the United
States Supreme Court and the Eleventh Circuit, in construing
and applying the federal counterpart to our Rule 404 (b). See
Olds v. State, 299 Ga. 65, 69 (2) (786 SE2d 633) (2016).
3 Booth does not claim that intent was not at issue. Indeed,
intent was an issue at trial because Booth pleaded not guilty

■ '

Page 4 of 7
V

301 Ga. 678, *682; 804 S.E.2d 104, **109; 2017 Ga. LEXIS 634, ***9
the intent required for malice murder. Malice murder,
however, is not the only crime for [*683] which he was
prosecuted in this case and thus for which the State was
required to prove intent. Booth was charged with other
crimes, including aggravated [***10] assault, so we may
consider whether the other acts were relevant to the
issue of intent on any of these offenses.
The standard for relevance under the first prong of the
Rule 404 (b) test is found in OCGA § 24-4-401 (“Rule
401”). See Olds v. State, 299 Ga. 65, 69 (2) (786 SE2d
633) (2016). Under Rule 401, evidence is relevant if it
has “any tendency to make the existence of any fact
that is of consequence to the determination of the action
more probable or less probable than it would be without
the evidence.” OCGA § 24-4-401. The test for relevance
under Rule 401 is generally a liberal one, see Olds, 299
Ga. at 75 (2), keeping in mind that the relevance of
other acts evidence
[**110] is a function of the degree of similarity
between the extrinsic act and the offense charged.
In this regard, the extrinsic and the charged offense
must have more than a mere characteristic in
common; the common characteristic must be the
significant one for the purpose of the inquiry at
hand.
United States v. Dothard, 666 F2d 498, 502 (11th Cir.
1982) (citation and punctuation omitted); see also
United States v. Beechum, 582 F2d 898, 911 (5th Cir.
1978). Where the relevant issue is intent, the other acts
must have a similar intent as the charged offense. See
Olds, 299 Ga. at 72 (2); see also United States v.
Williford, 764 F2d 1493, 1497 (11th Cir. 1985). We look
to the intent of the crime charged to determine the
admissibility of other acts, regardless of whether the
charged offense is one requiring general or specific
intent. [***11] See Jones, 297 Ga. at 162 (2).
Where the intent required for the charged offenses and
other acts is the same, and intent is at issue, the first
prong of the Rule 404 (b) test is satisfied. See Hood v.
State, 299 Ga. 95, 101 (4) (786 SE2d 648) (2016)

and did not affirmatively remove the issue of intent. See Hood
v. State, 299 Ga. 95, 102 (4) (786 SE2d 648) (2016). Booth
claimed that he found Vason in a state of distress after
someone else committed the crimes against her. This “mere
presence” defense forced the State to prove his criminal intent
so as to negate any innocent explanation for his presence in
Vason's apartment. See, e.g., United States v. Delgado, 56
F3d 1357, 1365 (11th Cir. 1995); United States v. DiazLizaraza, 981 F2d 1216, 1224-1225 (11th Cir. 1993).

(uncharged sales of prescription pills were relevant
where they had same intent as the charged offense of
possession of a controlled substance with intent to
distribute); Brannon v. State, 298 Ga. 601, 606-607 (4)
(783 SE2d 642) (2016) (where defendant did not admit
to knowing co-defendant killed the victim in order to
steal his car, other acts evidence of a similar crime
committed with co-defendant was relevant to establish
criminal intent); Jones, 297 Ga. at 160-161 (2)
(concluding that in trial for DUI offenses, which are
general intent crimes, a prior DUI conviction was
relevant on the issue of intent — the general intent to
drive under the influence of alcohol); Bradshaw, 296 Ga.
at 656-657 (3) (evidence showing that the defendant
killed someone over a drug deal by shooting them in the
head was relevant [*684] to establish intent in murder
trial where defendant was alleged to have shot two men
in the head over a drug deal).4 Olds reminded us that
relevance is a binary issue; evidence is either relevant
or it is not. Olds, 299 Ga. at 75 (2). Probative value, on
the other hand, is a range; all relevant evidence has
some probative value, but not necessarily much.5

4This approach is consistent with the Eleventh Circuit's
assessment of other acts' relevance to the issue of intent. See,
e.g., United States v. Sterling, 738 F3d 228, 239 (11th Cir.
2013) (affirming admission of defendant's prior conviction for
armed robbery because it was relevant to show intent on
charged offense of using a firearm during the commission of a
crime); United States v. Ellisor, 522 F3d 1255, 1267-1268
(11th Cir. 2008) (upholding admission of other acts evidence
showing an intent to defraud by promoting an illusory show
where defendant was charged with mail fraud over a similar
scam); United States v. Matthews, 431 F3d 1296, 1311 (11th
Cir. 2005) (arrest for distribution of cocaine was relevant to
intent on charged offense of conspiracy to distribute cocaine);
United States v. Parr, 716 F2d 796, 804-805 (11th Cir. 1983)
(affirming admission of failure to pay credit card bills as
evidence of "the intent to create an illusion of value thereby
obtaining something for nothing” as relevant in trial on charges
of violation of counterfeiting statutes and conspiracy to violate
the same where the intent to defraud was the same); Dothard,
666 F2d at 503 (concluding that trial court erred in admitting
certain other acts evidence because it did not show a specific
intent to deceive by making a false or fraudulent statement,
the intent required for the charged offense).
5 Even if evidence is relevant and, thus, satisfies the first prong
of the Rule 404 (b) test, that does not mean the evidence
would be admissible under the second prong of the Rule 404
(b) test — that the probative value of the evidence was not
substantially outweighed by its unfair prejudice. Booth makes
no argument on this prong and, thus, the issue is not before
us.

Page 5 of 7
v

301 Ga. 678, *684; 804 S.E.2d 104, **110; 2017 Ga. LEXIS 634, ***11
[***12] Id. at 75-76 (2). With these principles in mind,
we turn to review whether the other acts were relevant
to the issue of intent on a charged offense.
Among the charged offenses, Booth was charged with
aggravated assault for assaulting Vason with his hands
and unknown objects in an offensive manner that was
likely to result in serious bodily injury. See OCGA § 165-21 (a) (2) (“A person commits the offense of
aggravated assault when he ... assaults ... [wjith a
deadly weapon or with any object ... which, when used
offensively against a person, is likely to or actually does
result in serious bodily injury"). Although aggravated
assault can be charged in other ways that make the
offense a specific intent crime, the manner in which it
was charged [**111] here is a general intent crime,
requiring proof only that Booth had the intent to
(1) injure Vason (2) with a weapon, that weapon being
Booth's hands (or an unknown object) when used in a
manner likely to result in serious bodily harm. See
Guyse v. State, 286 Ga. 574, 577 (2) (690 SE2d 406)
(2010) (noting that assault with statutory aggravating
factors of intent to rob, rape, or murder are specific
intent crimes, but the aggravating factor of use of a
deadly weapon is a general intent crime); see also Miller
v. State, 275 Ga. 730, 732 (1) (571 SE2d 788) (2002)
(hands are not considered deadly [***13] weapons per
se, but jury may [*685] find them to be depending on
their use, injuries inflicted, and other circumstances).
In the incident involving Banks, she testified that Booth
hit her in the head and arms with his fist. Although very
little detail was provided about this offense, the fact that
Booth hit her multiple times, including at least once on
the head, would show an intent to injure with his hands
in a manner likely to result in serious bodily harm. See
Young v. State, 332 Ga. App. 361, 362 (2) (772 SE2d
807) (2015) (evidence that defendant struck victim in the
head with his fists was sufficient to sustain conviction for
aggravated assault, because it is a factual question as
to whether fists were objects used in a manner likely to
result in serious injury); Sims v. State, 296 Ga. App.
461, 463 (1) (675 SE2d 241) (2009) (same). (2) That
Booth intentionally hit another intimate partner in the
head, which is likely to cause serious bodily injury, is
relevant to show that he committed a similar act with the
same sort of intent in this case. See Olds, 299 Ga. at 72
(2) (“[Ejvidence that an accused committed an
intentional act generally is relevant to show — the
evidence, in other words, has some tendency to make
more or less probable — that the same defendant
committed a similar act with the same sort of intent,
especially when the acts were [***14] committed close

in time and in similar circumstances.” (emphasis in
original)); see also 2 Weinstein's Federal Evidence §
404.22 (1) (a) (“The requisite intent may be inferred
from the fact that, after being involved in a number of
similar incidents, the defendant must have had a mental
state that is inconsistent with innocence.”).6
As to the two acts against Hassell, Booth pleaded guilty
to committing the offense of family violence battery, and
by doing so, admitted that he “intentionally cause[d]
substantial physical harm or visible bodily harm to
another.” OCGA § 16-5-23.1 (defining battery and
providing for an enhanced sentence for repeat offenders
if battery is committed between persons living in the
same household). The evidence shows that Booth
committed these offenses by hitting Hassell on the
head, either with his hand or an unknown object. These
offenses thus show an intent to cause harm by hitting
the victim in the head with hands or fists and such
actions were likely to [*686] cause serious bodily injury.
We concluded above that this was the same intent
required to be proven for the aggravated assault charge
here. Because the intent required for the other acts and
the charged offense of aggravated assault is the same,
the first prong of the Rule 404 (b)[***15j test was
satisfied. Bradshaw, 296 Ga. at 657 (3).7
4. Booth next argues that the trial court erred in
overruling his objection to the State’s allegedly improper
comments during closing arguments. We disagree.
The State's allegedly improper comments stem from the
testimony of Dr. Greg Hampikian, a defense expert in
forensic DNA analysis. A closing argument is to be
judged in the context in which it is made. [**112]
Adams v. State, 283 Ga. 298, 302 (3) (e) (658 SE2d
627) (2008). During Dr. Hampikian's cross-examination
by the State, the following exchange occurred:

6 Admittedly, the line between propensity and intent is not a
clear one. See Jones, 297 Ga. at 163 (3) ("We caution that...
the often subtle distinctions between the permissible purposes
of intent and knowledge and the impermissible purpose of
proving character may sometimes be difficult to discern.”); see
also United States v. Pollock, 926 F2d 1044, 1048 (11th Cir.
1991) (“[Wjhat appears to one person as propensity may be
intent to another; the margin between is not a bright line.”).
Nevertheless, the case law is clear that once it is determined
that the extrinsic offense requires the same intent as the
charged offense, it is relevant. Jones, 297 Ga. at 161 (2).
7 In the light of this conclusion, we need not determine whether
the other acts evidence was relevant to other charged
offenses.

1
Page 6 of 7

\

301 Ga. 678, *686; 804 S.E.2d 104, “112; 2017 Ga. LEXIS 634, ***15
Q: [H]ow long does — how long can a DNA sample
stay in the body so that it can be collected, a profile
generated ... for comparison?
A: And I'm assuming you mean like a sexual
assault sample —
Q: Yes.
A: — a vaginal or a rectal sample?
Q: Vaginal, rectal's [sic].
A: You know, I think — I think we — we always ask
victim's [sic] if they've had consensual sex within 48
hours because within 48 hours you have a pretty
good chance of getting some sort of profile. In
experimental situations I've seen people report out
as far back as a week sometimes on a — especially
on a cervical sample, but generally not much more.
I mean, theoretically it could be a lot longer but in
practical experience that would be about the range.
Q: 48 hours?
[***16] A: 48 to, you know, maximum say a —
week in normal — in normal cases.
Q: So what's the 48-hour period?
A: That's — I mean, that's kind of the rule of thumb
Q: Okay.
A: — that we all — we all ask, you know, victims if
they've had consensual sex within 48 hours
because we would — we [*687] would expect to
see some remnant of that consensual partner if
they ejaculated inside of the victim.
Q: Okay. Does the length of time affect how much
of a profile you might get?
A: Yes.
Q: Okay. So the closer in time to the swab, the
more of a profile you would get?
A: That's one of the factors that affects it.
Absolutely.

gone [***17] in Ms. Vason's rectum after the
contribution of that sperm, it would have taken
away from that full DNA profile.
DEFENSE: Your Honor, we're going to object this
time. That has not gone up on the evidence.
COURT: All right. I'm going to overrule the
objection. He can argue any reasonable inferences
he deems appropriate. The jury will ultimately
decide what they did and did not hear. You may
continue. Overruled.
STATE: Ladies and gentlemen, the DNA profile
was a full DNA profile. Their doctor Hampikian told
you that the closer in time to the contribution, the
more likely you are going to get a full DNA profile.
The closer in time — this was their doctor, their
witness with the Georgia Justice Project. The closer
in time a contribution, the better it is you're going to
get a full DNA profile. And remember the GBI
analyst told you things that affect that is washing,
time, going to the bathroom, changing clothes.
Nothing affected this full DNA profile of her rectum.
It was close in time; it was the most recent
contribution because the one in her vaginal area
was partial. Of the 16, I think we had testimony of
12 or 13 but it wasn't full, the unknown wasn't full.
And you all can infer from [***18] that the one in
the rectum was closer in time. Which means —
[*688]
DEFENSE: Your Honor, we would object.
COURT: All right. I'll overrule the objection. I'm
going to overrule the objection. The jury will hear —
well strike that — will recall what they did and did
not hear. He can argue whatever reasonable
inferences he deem[s] appropriate. The jury will
make the ultimate decision. You may continue.

Booth argues that the State mischaracterized Dr.
Hampjkian^s testimony and asserted matters that were
not in evidence when it made the following comments:

[**113] STATE: Ladies and gentlemen, you all
know which one was the full one and which one
was the partial one. And you all heard the evidence
from their doctor, the closer in time you're going to
get a full.

STATE: All right. Now — the DNA in the rectum.
There was DNA in her rectum; in Shantle Vason's
rectum. [The defense's] doctor agreed with the
Georgia Crime Lab. They — the Georgia Crime Lab
did good work in this case. The DNA in the rectum
was a full DNA profile of the defendant. A full DNA
profile. It hadn't been a breakdown, it wasn't a
mixture, it wasn't a partial, it hadn't been washed
out, full DNA profile. If that candlestick had

Booth asserts that the State's argument improperly
allowed the jury to believe that DNA evidence can be
time-stamped. (3) Contrary to Booth's claims, the
State's comments were within the bounds of permissible
closing arguments. ''[A] prosecutor is granted wide
latitude in the conduct of closing argument, the bounds
of which are in the trial court's discretion^” Scott v.
State, 290 Ga. 883, 885 (2) (725 SE2d 305) (2012).
Within that wide latitude, a prosecutor may ‘‘comment

Page 7 of 7

i

301 Ga. 678, *688; 804 S.E.2d 104, **113; 2017 Ga. LEXIS 634, ***18
upon and draw deductions from the evidence presented
to the jury.” Johnson v. State, 296 Ga. 504, 508 (4) (769
SE2d 87) (2015). Given Dr. Hampikian's testimony that
the passage of time is a factor that affects the ability to
collect a more complete DNA profile, [***19] there was
nothing impermissible about the State's argument that
the partial DNA profile collected from Vason's vaginal
area was more remote in time than the full DNA profile
of Booth collected from Vason's rectum and, thus, was
evidence of Booth's guilt in committing the aggravated
sexual battery.
5. Booth asserts that (4) the trial court erred by merging
the two felony murder counts with the malice murder
count and asks that we remand for resentencing. The
State agrees that the trial court used the wrong
nomenclature in purporting to “merge” the felony murder
counts into the malice murder count, see Favors v.
State, 296 Ga. 842, 847-848 (5) (770 SE2d 855) (2015)
(felony murder counts do not “merge” into malice
murder verdict but are vacated by operation of law), but
argues that a remand is unnecessary because there are
no counts for which the trial court can enter a sentence
on remand. We agree.
The predicate felonies in the felony murder counts were
aggravated battery and abuse of a disabled adult.
These predicate felonies were not separately charged
and no verdict was rendered on them. We vacate the
merger of the felony murder counts, but because the
trial court's sentence was proper in all other respects,
we need not remand for resentencing. See [***20]
Atkinson v. State, 301 Ga. 518 (801 SE2d 833) (2017).
[*689] Judgment affirmed in part and vacated in part.
All the Justices concur.

End of Document

IN THE SUPERIOR COURT OF BALDWIN COUNTY
STATE OF GEORGIA
*

DELROY T. BOOTH,
GDC# 1087139,

*

CIVIL ACTION NO.
19-SU-CV-49118

*
*

Petitioner,

*
*

VS.

*

TREVONZA BOBBIT, Warden

*

HABEAS CORPUS

*

Respondent.

*

FINAL ORDER
Petitioner, Delroy T. Booth, filed this petition for a writ of habeas
corpus, challenging his 2013 DeKalb County jury trial convictions and
sentences for malice murder and aggravated sexual battery, affirmed on
appeal in 2017. Based upon the record as established at the March 27, 2019,
hearing1, this Court makes the following findings of fact and conclusions of
law and DENIES relief.
PROCEDURAL HISTORY
Petitioner was indicted by a DeKalb County grand jury on September
22, 2011, for malice murder (count 1), felony murder (counts 2-3), aggravated
sodomy (count 4), aggravated sexual battery (count 5), and aggravated
assault (count 6). (HT. 29-36). Petitioner was represented at trial by Daryl

1 Citations to the March 27, 2019, evidentiary hearing transcript will be
referred to as “HT,” followed by the page number.

Queen and Lauren C. Brown. (HT. 570). At a jury trial held in February and
March of 2013, Petitioner acquitted of aggravated sodomy but was found
guilty on the remaining counts. (HT. 462-63). The trial court merged felony
murder (counts 2-3) with malice murder (count 1), and sentenced Petitioner
to life for malice murder (count 1), life consecutive for aggravated sexual
battery (count 5), and twenty years consecutive for aggravated assault (count
6). (HT. 464-65). The sentence was later amended to also merge aggravated
assault (count 6) into malice murder (count 1). (HT. 504-05).
Petitioner was represented post-trial by Margaret E. Flynt, who
amended the motion for new trial. (HT. 471, 495).
Petitioner was represented on appeal by Konrad G. W. Ziegler, who
enumerated four errors:
1) The trial court erred by allowing the State to make improper
argument during closing statements;
2) The trial court erred by admitting evidence of a prior simple
battery and a battery to prove intent to commit malice murder,
felony murder, and aggravated assault;
3) The trial court erred by informing the competency jury of not only
the charges against Petitioner, but also the details of how each
crime was committed; and,

2

4) The trial court erred by merging the felony murder counts into the
malice murder, rather than vacating them.
(HT. 2015-51).
The Georgia Supreme Court found that enumerated errors one, two
and three lacked merit, but did find the fourth claim to be meritorious and
agreed that the trial court erred in “merging” the felony murder counts
rather than “vacating them.” Booth v. State, 301 Ga. 678, 804 S.E.2d 104
(2017). The Court vacated the felony murder counts, but did not remand the
case for resentencing.
Petitioner filed this habeas corpus petition challenging his DeKalb
County convictions on January 14, 2019. The case came before this Court on
March 27, 2019, for an evidentiary hearing. The Court will address similar
claims together.
STATEMENT OF FACTS
The Court adopts and incorporates by reference herein the facts as set
forth in the decision in Petitioner’s direct appeal. See Booth, 301 Ga. at 67880.
GROUNDS ADDRESSED ON APPEAL
In ground 1, Petitioner alleges that the trial court erred in admitting
evidence of a prior simple battery and a prior battery to prove intent.

3

In ground 2, Petitioner alleges that the trial court erred by failing to
stop the State from making improper argument during closing arguments.
In ground 3, Petitioner alleges that the trial court erred by informing
the competency jury not only of the charges against Petitioner but also the
details of how each crime was committed.
Findings of Fact and Conclusions of Law
These are the same claims that Petitioner raised in enumerations of
error 1-3 on direct appeal. (HT. 2034-47). The Georgia Supreme Court
decided them adversely to Petitioner. See Booth, 301 Ga. at 678. That
Court’s rulings are binding on this Court. Gaither v. Gibby, 267 Ga. 96, 475
S.E.2d 603 (1996); Gunter v. Hickman, 256 Ga. 315, 348 S.E.2d 644 (1986).
Accordingly, grounds 1-3 provide no basis for relief.
DEFAULTED GROUNDS
In ground 4 of the petition, Petitioner alleges that the trial court was
biased against him.
Findings of Fact and Conclusions of Law
This allegation was not raised both at trial and on direct appeal, so it is
procedurally defaulted under O.C.G.A. 9-14-48(d), and Petitioner has failed to
show cause and prejudice to overcome the default.
Pursuant to O.C.G.A. § 9-14-48(d):

4

The court shall review the trial record and transcript of
proceedings and consider whether the petitioner made timely
motion or objection or otherwise complied with Georgia
procedural rules at trial and on appeal and whether, in the event
the petitioner had new counsel subsequent to trial, the petitioner
raised any claim of ineffective assistance of trial counsel on
appeal; and absent a showing of cause for noncompliance with
such requirement, and of actual prejudice, habeas corpus relief
shall not be granted.
Because Petitioner did not raise this claim at trial and on direct appeal,
it is procedurally defaulted. Todd v. Turpin, 268 Ga. 820, 493 S.E.2d 900
(1997); Black v. Hardin, 255 Ga. 239, 336 S.E.2d 754 (1985). To show cause
to overcome the default, Petitioner must demonstrate “cause” to overcome the
default - i.e., that “some objective factor external to the defense impeded
counsel’s efforts to raise the claim that has been procedurally defaulted.”
Head v. Carr, 273 Ga. 613, 614, 544 S.E.2d 409 (2001); Turpin v. Todd, 268
Ga. at 825. )
“Cause” to overcome a default may be constitutional ineffective

C&

assistance of counsel under the Sixth Amendment standard of Strickland v.

^

Washington, 466 U.S. 668 (1984). Turpin v. Todd, 268 Ga. 820, 826, 493
S.E.2d 900 (1997). “Actual prejudice” may be shown through satisfying the
prejudice prong of Strickland or satisfying the actual prejudice test of United[
States v. Frady, 456 U.S. 152, 170 (1982), which requires “not merely that the
errors at his trial created a possibility of prejudice, but that they worked to
his actual and substantial disadvantage, infecting his entire trial with error
5

»

of constitutional dimensionsTurpin at 828-29. “[A] habeas petitioner who
meets both prongs of the Strickland test has established the necessary cause
and prejudice to overcome the procedural bar of OCGA § 9-14-48(d).” Battles
v. Chapman, 269 Ga. 702, 506 S.E.2d 838 (1998). ■- L-ooV*.

VA°\

Petitioner has not shown cause as defined in Todd to overcome the
default of this claim2. Todd v. Turpin, 268 Ga. at 820. He has similarly
failed to show prejudice. Petitioner has presented no evidence of improper
bias, and none of the alleged acts of bias pointed to by Petitioner demonstrate
any improper action by the trial court. As to the failure to grant Petitioner
bond, after a bond hearing that is not in the present record, the trial court
found that Petitioner posed a significant flight risk and posed a significant
threat of danger to a person or the community. (HT. 332-34). Petitioner has
not demonstrated that this decision was due to an improper bias. As for the
trial court’s ruling on the objection to the State’s closing argument that the
State can argue and reasonable inferences and that the jury will recall what
they heard, such ruling was simply an accurate statement of the law and did
not demonstrate bias. See Johnson v. State, 296 Ga. 504, 508, 769 S.E.2d 87
(2015). Finally, there was no demonstration of bias when the trial court
determined that the testimony of a DNA expert at the motion for new trial

2 Petitioner has not shown or even alleged that his appellate counsel was
ineffective for failing to raise these claims.
6

V>Y\

A
4‘

was not relevant to the determination of whether or not the State made
improper inferences during closing arguments. (HT. 1968-91).3
Ground 4 is defaulted and provides no basis for relief.

3 Petitioner’s claim that the Georgia Supreme Court was biased for denying
his grounds on appeal is outside this Court’s purview to correct.
7

CONCLUSION
Wherefore, the habeas corpus petition is denied.
If Petitioner desires to appeal this order, he must file an application for
a certificate of probable cause to appeal with the Clerk of the Georgia
Supreme Court within thirty (30) days of the date this order is filed.
Petitioner must also file a notice of appeal with the Clerk of the Baldwin
County Superior Court within the same thirty (30) day period.
The Clerk of the Superior Court is hereby directed to provide a copy of
this order to Petitioner, Respondent, and the Attorney General’s Office.
SO ORDERED, this

., 2019.

day of

AMANDA S. PETTY, Judge
Ocmulgee Judicial Circuit

Prepared by:

}AA
lyfeghan H. Hill
Georgia Department of Law
40 Capitol Square, S.W.
Atlanta, Georgia 30334-1300
(404) 657-0267
mhill@law. ga. gov

8

*

Case 1:20-CV-00423-AT Document 22 Filed 07/22/20 Page 1 of 6

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
PRISONER HABEAS CORPUS
28II.S.C. S2254

DELROY T. BOOTH,
GDC #1087139,
Petitioner,
v.

CIVIL ACTION NO.
1:20-CV-423-AT-JKL

WALTER BERRY,
Respondent.

ORDER AND FINAL REPORT AND RECOMMENDATION
Petitioner Delroy T. Booth, incarcerated at the Johnson State Prison in
Wrightsville, Georgia, filed the instant pro se federal habeas petition pursuant to
28 U.S.C. §2254 in which he attempts to challenge his 2013 convictions and
sentences in the DeKalb County Superior Court. (Doc. It. The matter is before
the Court on the petition [Doc. 1]: the answer-response [Doc. 8]: Respondent’s
motion to dismiss the petition as untimely with attached brief and accompanying
exhibits [Docs. 9-10]; and Petitioner’s motion for a ruling [Doc. 13].
I.

PROCEDURAL HISTORY

On September 22, 2011, a DeKalb County grand jury indicted Petitioner for
malice murder, two counts of felony murder, aggravated sodomy, aggravated
sexual battery, and aggravated assault. Booth v. State, 301 Ga. 678. 678 n.l
(2017). After Petitioner entered an incompetency plea, a special jury found that he
was competent to stand trial. Id. Following a jury trial in February and March of
jt

Case l:20-cv-00423-AT Document 22 Filed 07/22/20 Page 2 of 6

2013, Plaintiff was found guilty of all charges but the aggravated sodomy count.
Id.

The trial court merged Petitioner’s felony murder and aggravated assault

convictions into the malice murder count and sentenced Petitioner to consecutive
life imprisonment sentences. Id.
On August 14, 2017, the Georgia Supreme Court affirmed Petitioner’s
convictions, but vacated the felony murder convictions by operation of law. Id.
Petitioner did not move for a rehearing; nor did he seek further appellate review.
Petitioner filed a state habeas corpus petition in the Baldwin County
Superior Court on January 14, 2019.

(Doc. 10-21. Following an evidentiary

hearing on March 27, 2019, the state habeas corpus court denied relief on
November 18, 2019. (Doc. 10-31. Petitioner did not file an application for a
certificate of probable cause (“CPC”) with the Georgia Supreme Court to appeal
the denial.
Petitioner executed this federal habeas petition on December 19, 2019, in
which he challenges his 2013 DeKalb County convictions.3 (Doc. 11. Respondent
has filed a motion to dismiss the petition as untimely [Doc. 9], Petitioner has not
3
Under the federal “mailbox rule,” a pro se federal habeas petition is deemed
to be filed on the date it was delivered to prison authorities for mailing {i.e.,
signed). Rule 3(d) of the Rules Governing §2254 Cases, 28 U.S.C. foil. §2254;
Taylor v. Williams, 528 F.3d 847. 849 (11th Cir. 2008). Although Respondent
states that Petitioner filed this petition on December 12, 2019, all of his signatures
indicate the date as December 19, 2019. (Doc. 1 at 9: Doc. 1-2- at 14-15).
Petitioner originally filed the petition in the Middle District of Georgia and it was
transferred to this Court on January 29, 2020. (Docs. 5, 6).
2

Case l:20-cv-00423-AT Document 22 Filed 07/22/20 Page 3 of 6

responded to the motion. Petitioner did file a motion requesting a ruling in which
he attempts to add further support for the grounds for relief raised in the petition;
however, he does not discuss whether the petition is timely. (Doc. 13).
II.

DISCUSSION

Section 2244(d)(1) of Title 28, as amended by the Anti-Terrorism and
Effective Death Penalty Act of 1996 (hereinafter “AEDPA”), contains a one-year
limitation period for all prisoners seeking to challenge, via 28 U.S.C. §2254. the
validity of a state court conviction. The one-year limitation period runs from the
latest of:
(A) the date on which the judgment became final by the conclusion of
direct review or the expiration of the time for seeking such
review;
(B) the date on which the impediment to filing an application created
by State action in violation of the Constitution or laws of the
United States is removed, if the applicant was prevented from
filing by such State action;
(C) the date on which the constitutional right asserted was initially
recognized by the Supreme Court, if the right has been newly
recognized by the Supreme Court and made retroactively
applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims
presented could have been discovered through the exercise of due
diligence.
Id.
When the Georgia Supreme Court entered its opinion vacating the felony
murder convictions and affirming Petitioner’s remaining convictions and sentences
3

S‘W«

Case l:20-cv-00423-AT Document 22 Filed 07/22/20 Page 4 of 6

on August 14, 2017, Petitioner had ninety days, or until November 13, 2017, to file
a petition for certiorari in the United States Supreme Court.4 See S. Ct. R. 13.1.
As Petitioner did not file a petition for certiorari, his convictions became final and
the limitation period began to run on November 13, 2017, and, without tolling,
expired one year later on November 13, 2018.
Pursuant to 28 TI.S.C. 82244td¥2T “[t]he time during which a properly filed
application for State post-conviction or other collateral review with respect to the
pertinent judgment or claim is pending” does not count toward the one-year
limitation period. 28TJ.S.C. §2244fd¥21. See also Carey v. Saffold, 536 U.S. 214.
217 (2002). Petitioner’s state habeas petition, filed two months after the limitation
period expired, did not toll the limitation period because there was no period
remaining to be tolled. See Tirado v. Sec ’y, Dep’t of Corr., No. 17-14791-D, 2018
WT, 5778983. at *1 (11th Cir. 2018) (“Although Tirado’s properly filed motions
for post-conviction relief ordinarily would toll the limitations period, they were
filed after expiration of the limitations period, when there was no period remaining
to be tolled.”); Webster v. Moore, 199 F.3d 1256. 1259 (11th Cir. 2000) (“A statecourt petition . . . that is filed following the expiration of the limitations period
cannot toll that period because there is no period remaining to be tolled.”).
4
Because November 12, 2017, fell on a Sunday, Petitioner had until the next
business day, or until Monday, November 13, 2017, to file a certiorari petition.
See S.Ct.R. 31(1).
4

Case l:20-cv-00423-AT Document 22 Filed 07/22/20 Page 5 of 6

Consequently, the instant petition, filed nearly a year and one month after the
limitation period expired, should be dismissed as untimely.5
III.

CONCLUSION

For the foregoing reasons,
I RECOMMEND that Respondent’s motion to dismiss the petition as
untimely [Doc. 9] be GRANTED and that the instant §2254 habeas petition [Doc.
1] be DISMISSED as untimely.
Petitioner’s motion for a ruling [Doc. 13] is DENIED AS MOOT.
IV.

CERTIFICATE OF APPEALABILITY (“COA”)

According to Rule 11 of the Rules Governing Section 2254 Proceedings for
the United States District Courts, a district court “must issue or deny a certificate
of appealability when it enters a final order adverse to the applicant.” Under 28.
U.S-C. § 2253(c¥2Y a COA may issue “only if the applicant has made a
substantial showing of the denial of a constitutional right.” A prisoner satisfies this
standard by demonstrating that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or wrong and that any dispositive
procedural ruling by the district court is debatable. Miller-El v. Cockrell, 537 U.S
322. 366 (2003); Slack v. McDaniel, 529 U.S. 473. 484 (2000).
5
Although the one-year limitation period in §2244(d) is subject to equitable
tolling, Holland v. Florida. 560 U.S. 631. 645 (2010), Petitioner does not present
any facts indicating that he seeks equitable tolling or provide any extraordinary
circumstances such that equitable tolling would apply.
.
5

*-,r

Case l:20-cv-00423-AT Document 22 Filed 07/22/20 Page 6 of 6

Petitioner has failed to make a substantial showing that reasonable jurists
would find my conclusions “debatable or wrong” that Petitioner’s claims are
untimely. Accordingly, I FURTHER RECOMMEND that a COA be DENIED.
The Clerk is DIRECTED to terminate the referral to the undersigned
Magistrate Judge.
SO RECOMMENDED this 22nd day of July, 2020.

JOHN K. LARKINS III
UNITED STATES MAGISTRATE JUDGE

6

Case l:20-cv-00423-AT Document 23 Filed 07/22/20 Page 1 of 2

36

Vx

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
DELROY T. BOOTH,
GDC #1087139,
Petitioner,

PRISONER HABEAS CORPUS
28 U.S.C. §2254

v.

WALTER BERRY,
Respondent.

CIVIL ACTION NO.
1:20-CV-423-AT-JKL

ORDER FOR SERVICE OF FINAL REPORT AND RECOMMENDATION
The Report and Recommendation of the United States Magistrate Judge, made
in accordance with 28 U.S.C. §636(b)(l) and this Court’s Local Rule 72, has been
filed. The Report and Recommendation and a copy of this Order shall be served
upon counsel for the parties.
Pursuant to 28 U.S.C. §636(b)(l)(C), within fourteen (14) days of service of
this Order, each party may file written objections, if any, to the Report and
Recommendation. If objections are filed, they shall specify with particularity the
alleged error or errors made (including reference by page number to the transcript if
applicable) and shall be served upon the opposing party. The party filing objections
will be responsible for obtaining and filing the transcript of any evidentiary hearing
for review by the District Court. If no objections are filed, the Report and
Recommendation may be adopted as the opinion and order of the District Court, and
any appellate review of the factual and legal findings will be limited to a plain error

Case l:20-cv-00423-AT Document 23 Filed 07/22/20 Page 2 of 2

review. United States v. Slay, 714 F.2d 1093, 1095 (11th Cir. 1983); 11th Cir. R. 31.
The Clerk is DIRECTED to submit the Report and Recommendation with
objections, if any, to the District Judge after expiration of the time period stated
above.
SO ORDERED this 22nd day of July, 2020.

JOHN K. LARKINS III
UNITED STATES MAGISTRATE JUDGE

2

C1W7ECF-GA Northern District Court

CMmlECF

Civil

Criminal

What's New

Query

Beports

Utilities

Search

Help

Log Out (Teressa Frazier)

Other Orders/Judgments
1:2Q-cv-00423-AT BOOTH v. BERRY
Omonths,2254, ATLC2, HABEAS, JKL.SLC6

U.S. District Court
Northern District of Georgia
Notice of Electronic Filing

The following transaction was entered on 7/22/2020 at 4:45 PM EDT and filed on 7/22/2020
BOOTH v. BERRY
Case Name:
1:20-cv-00423-AT
Case Number:
Filer:
Document Number: 21
Docket Text:
ORDER for Service of [22] Final Report and Recommendation by Magistrate Judge John K. Larkins, III.
Each party may file written objections to the Report & Recommendation within 14 days of service. If no
objections are filed, the Report & Recommendation may be adopted as the opinion and order of the
District Court. Signed by Magistrate Judge John K. Larkins, III on 7/22/2020. (tmf)

l:20-cv-00423-AT Notice has been electronically mailed to:
Meghan Hobbs Hill

mhill@law.ga.gov, psmith@law.ga.gov

l:20-cv-00423-AT Notice has been delivered by other means to:
DELROYT BOOTH
GDC1087139
JOHNSON STATE PRISON
J2 Bed #247
P.O. Box 344
290 Donovan - Harrison Rd.
Wrightsville, GA 31096
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID=l 060868753 [Date=7/22/2020] [FileNumber=l 10399350] [85c6ad5ed29ac7a7d33 241 d9d2461 a3 adeee0fb95 0a982786bacc40994c5 6c 1200
c861 e50fcedb6b202ec5d0bc20a970a3820e2cc80c6820c7a8bb 1 a2a2182d9]]

https://gand-ecf.sso.dcn/cgi-bin/Dispatch.pl?640879677592743[7/22/2020 4:47:39 PM]

<1

\
\

Case l:20-cv-00423-AT Document 27 Filed 09/23/20 Page 1 of 4

3(L

VxX

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION

r
}

a

DELROY T. BOOTH,
Petitioner,
CIVIL ACTION NO.
1:20-CV-0423-AT

v.

h

4

WALTER BERRY,
Respondent.
ORDER
Presently before the Court is the Magistrate Judge’s Report and
Recommendation (R&R) recommending that the instant habeas corpus petition be
denied and the case dismissed. [Doc. 22]. Petitioner has filed a document that this
Court construes as his objections in response to the R&R. [Doc. 25].

t

•J

■1

A district judge has broad discretion to accept, reject, or modify a magistrate
judge’s proposed findings and recommendations. United States v; Raddatz. 447 U.S.
667,680 (1980). Pursuant to 28 U.S.C. § 636(b)(1), the Court reviews any portion of
the Report and Recommendation that is the subject of a proper objection on a denovo
basis and any non-objected portion under a “clearly erroneous” standard. “Parties
filing objections to a magistrate’s report and recommenclation must specifically
J

i

identify those findings objected to. Frivolous, conclusive or general objections need

¥

not be considered by the district court.” Marsden v. Moore, 847 F.2d 1536, 1548

■i

j

(11th Cir. 1988).
A0 72A
(Rev.8/82)

f

-.3

■vs!

fl, y,<r *

>
Case l:20-cv-00423-AT Document 27 Filed 09/23/20 Page 3 of 4

Fla., 560 U.S. 631, 649 (2010) (quotation and citation omitted). The lack of a
transcript does not, however, prevent the filing of a timely petition. Indeed, as
Petitioner indicates in his objections, Respondent filed his trial transcript as an exhibit
in his state habeas corpus proceeding, and Petitioner could have sought additional
time to raise claims that he discovered from a review of his transcript. As a result,
Petitioner’s claim that he could not obtain a transcript is not the type of extraordinary
circumstance that would entitle him to equitable tolling. See Donovan v, Maine, 276
F.3d 87,93 (1 st Cir. 2002) (delay in obtaining transcript not basis for equitable tolling
of one-year limitation period); Lloyd v. Van Natta, 296 F.3d 630,634 (7th Cir. 2002)
(same); Gassier v, Bruton, 255 F.3d 492, 495 (8th Cir. 2001) (“Possession of a
transcript, however, is not a condition precedent to the filing of [a petition for
post-conviction relief]”); see also Pacheco v. Artuz, 193 F. Supp. 2d 756, 760
(S.D.N.Y. 2002) (the § 2244(d)(1)(D) time bar runs “from the date a petitioner is on
notice of the facts which would support a claim, not from the date on which the
petitioner has in his possession evidence to support his claim.”); Jihad v. Hvass. 267
F.3d 803, 806 (8th Cir. 2001) (“[L]ack of access to atrial transcript does not preclude
a petitioner from commencing postconviction proceedings and therefore does not
warrant equitable tolling”); Brown v. Cain. 112 F. Supp. 2d 585,587 (E.D. La. 2000)
(transcript unnecessary to prepare habeas petition); Fadayiro v. United States. 30 F.
3
AO 72A
(Rev.8/82)

i, i » V
N.

S

Case l:20-cv-00423-AT Document 27 Filed 09/23/20 Page 4 of 4

Supp. 2d 772, 779-80 (D.N.J. 1998) (delay in receiving transcripts not sufficiently
extraordinary to justify application of equitable tolling); United States v. Van Povck,
980 F. Supp. 1108, 1110-11 (C.D. Cal. 1997) (delay in receipt of transcript not an
“extraordinary circumstance[ ]” sufficient to justify equitable tolling).
Having reviewed the R&R in light of Petitioner’s objections, this Court
concludes that the Magistrate Judge is correct. Accordingly, the R&R, [Doc. 22], is
hereby ADOPTED as the order of this Court, Respondent’s motion to dismiss the
petition as untimely, [Doc. 9], is GRANTED, and the petition is DENIED pursuant
to 28 U.S.C. § 2244(d). The Clerk is DIRECTED to close this action.
This Court further agrees with the Magistrate Judge that Petitioner has failed
to make “a substantial showing of the denial of a constitutional right,” and a
Certificate of Appealability is DENIED pursuant to 28 U.S.C. § 2253(c)(2).
IT IS SO ORDERED, this 23rd day of September, 2020.

UNITED STATES DISTRICT JUDGE

4
AO 72A
(Rev.8/82)

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
For rules and forms visit
www.cal 1 .uscourts.gov

David J. Smith
Clerk of Court

November 24, 2020
Delroy T. Booth
Johnson SP - Inmate Legal Mail
PO BOX 344
J2-Bed 247
WRIGHTSVILLE, GA 31096
Appeal Number: 20-13865-B
Case Style: Delroy Booth v. Warden
District Court Docket No: 1:20-cv-00423-AT
Pursuant to Eleventh Circuit Rule 42-1(b) you are hereby notified that upon expiration of (14)
days from this date, this appeal will be dismissed by the clerk without further notice unless the
default(s) noted below have been corrected:
Pay to the DISTRICT COURT clerk the docketing and filing fee, with notice to this office, or
move in this court for leave to proceed on appeal as a pauper (form enclosed).
11th Cir. R. 42-1(b) also provides that "If an appellant is represented by appointed counsel, the
clerk may refer the matter to the court for possible disciplinary action against counsel in lieu of
dismissal."
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: Craig Stephen Gantt, B
Phone #: 404-335-6170
Enclosure(s)
DIS-1 Deficiency

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

No. 20-13865-B

DELROYT. BOOTH,
Petitioner - Appellant,
versus
WARDEN,
Respondent - Appellee.

Appeal from the United States District Court
for the Northern District of Georgia

ENTRY OF DISMISSAL: Pursuant to the 11th Cir.R.42-l(b), this appeal is DISMISSED for
want of prosecution because the appellant Delroy T. Booth failed to pay the filing and docketing
fees to the district court, or alternatively, file a motion to proceed in forma pauperis in this court
within the time fixed by the rules, effective December 23, 2020.
DAVID J. SMITH
Clerk of Court of the United States Court
of Appeals for the Eleventh Circuit
by: Craig Stephen Gantt, B, Deputy Clerk
FOR THE COURT - BY DIRECTION

